<html>
<title> - AN INSIDER'S LOOK AT THE NORTH KOREAN REGIME</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                       AN INSIDER'S LOOK AT THE 
                          NORTH KOREAN REGIME

=======================================================================

                                 HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 1, 2017

                               __________

                           Serial No. 115-78

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]         


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                     U.S. GOVERNMENT PUBLISHING OFFICE                    
27-389PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3255425d72514741465a575e421c515d5f1c">[email&#160;protected]</a>                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
Vacant<greek-l>As of 10/24/17 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

Mr. Thae Yong-ho (former Deputy Chief of Mission, Embassy of the 
  Democratic People's Republic of Korea in the United Kingdom)...     4

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Thae Yong-ho: Prepared statement.............................     8

                                APPENDIX

Hearing notice...................................................    46
Hearing minutes..................................................    47
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    49
Written responses from Mr. Thae Yong-ho to questions submitted 
  for the record by the Honorable Dina Titus, a Representative in 
  Congress from the State of Nevada..............................    51

 
                       AN INSIDER'S LOOK AT THE 
                          NORTH KOREAN REGIME

                              ----------                              


                      WEDNESDAY, NOVEMBER 1, 2017

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:30 a.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing will come to order. All 
members, if you will have your seats.
    Thae Yong-ho is one of the highest-ranking North Korean 
officials ever to defect. As this former Deputy Ambassador to 
the United Kingdom will tell us, he wanted his family to be 
free. It is rare that we have the opportunity to hear from 
someone with such unique insight into the most repressive 
regime in the world and one that is now threatening us with 
nuclear weapons.
    Mr. Thae, I wanted to say thank you for speaking before 
this committee today and wanted also to acknowledge that it 
takes courage for you to do this.
    I met with you in August in Seoul, along with Mr. Yoho of 
this committee and Mr. Schneider and Mr. Bera. Your 
observations and your recommendations to the committee today 
will not only help inform U.S. policy, but it is my hope that 
your message, including how we can peacefully denuclearize the 
Korean Peninsula, will reach the ears of every North Korean 
still suffering under Kim Jong-un's brutal rule.
    As I know you agree, it is crucial that we get information 
to North Koreans so that they can better understand the 
corruption of the self-serving regime there. As we will hear, 
elites live in relative luxury while millions barely survive. 
Our efforts are already putting pressure on the regime by 
creating and increasing defections from the country. I think 
the Kim regime is vulnerable.
    To support our information efforts, the House recently 
passed legislation authored by Chairman Emeritus Ros-Lehtinen 
to reauthorize the North Korean Human Rights Act. This 
important bill continues our broadcasts and it updates our 
efforts to include more modern technology to help spread 
outside information into North Korea. While we should take a 
diplomatic approach to North Korea, the reality is that the 
regime itself will never be at peace with its people, its 
neighbors, or us.
    But information is not our only tool. Congress also has 
done its part to ramp up economic pressure. We passed my North 
Korea Sanctions bill last February. In July, we increased the 
tools at the administration's disposal by passing a big 
sanctions package, which targets, among other things, North 
Korean slave labor.
    In August, the administration secured a major victory with 
the unanimous adoption of U.N. Security Council Resolution 
2371. Myself and Mr. Engel saw Ambassador Nikki Haley last 
night. Ambassador Haley called this ``the strongest sanctions 
ever imposed in response to a ballistic missile test.'' And in 
September, under her leadership, the Security Council passed 
another resolution, further upping the pressure on the regime 
in response to its sixth nuclear test.
    To be effective, these tools must be implemented 
aggressively. We will hear today how sanctions are having an 
impact and hurting the regime there. The administration has 
increased the pace, but we need to dramatically increase the 
number of North Korean-related designations, and we need to do 
that without delay.
    By using all the tools at our disposal, we can bring the 
necessary pressure to bear peacefully in order to denuclearize 
the Korean Peninsula. Mr. Thae, your insights into the impact 
of these efforts and life in North Korea will be invaluable and 
I thank you for joining us here today.
    I have been in North Korea once. Mr. Engel has been there 
on two occasions, and I want to thank the ranking member. What 
we are going to do now, Mr. Thae, is he will have his opening 
statement.
    Then we will go to you and we will hear from you, and 
afterwards we will go to the members of the committee so that 
they might ask you questions and then you can respond.
    Mr. Engel, if you would like to make your opening 
statement.
    Mr. Engel. Thank you very much, Mr. Chairman, and I stand 
by every word you said in your opening statement. We have no 
disagreement on this very important issue.
    Mr. Thae, welcome to the Foreign Affairs Committee. We are 
deeply grateful for your time this morning. As the chairman 
said, several members of the committee, myself included, have 
visited North Korea. I have been there twice, but not lately.
    We have had dozens and dozens of diplomats and experts 
appear before us to discuss our strategy for dealing with 
Pyongyang, to shed light on the abuses of the Kim regime, to 
provide insight on North Korea's development of nuclear 
weapons.
    You know, one of the things that was interesting when I was 
in Pyongyang is I got up early in the morning and walked around 
and we saw a lot of people going to work, and they looked well 
fed. They looked well dressed. Everything was fine.
    I was then told that--by others that these were the elites 
and the only ones in North Korea that are functioning well and 
they kept us out of any place other than Pyongyang. They didn't 
want us to see what was going on in the rest of the country.
    So the insight you can provide, Mr. Thae, will give our 
members and the public a unique perspective on this challenge. 
You come to us at an urgent time. Obviously, the Kim regime has 
accelerated its development of nuclear weapons and ways to 
deliver them.
    Our allies--South Korea and Japan--are at risk and the day 
is quickly approaching when North Korea will have the ability 
to hit the United States with a devastating nuclear payload.
    Any conflict on the Korean Peninsula, nuclear or 
conventional, would entail horrific loss of life. This is one 
of the most urgent challenges we face on the global stage--no 
doubt about it.
    And let's call it the way we see it. Administrations of 
both parties have failed to put a lid on the Kim regime's 
nuclear program over the course of decades.
    But I feel that what's happening now--the President and the 
administration are undermining diplomacy in North Korea, where 
it is needed more than ever, hampering our ability to lead on 
the issue.
    The strategy that key cabinet officials laid out seems to 
call for a combination of multilateral, diplomatic, and 
economic pressure. These policies, along with shows of military 
force like flying bombers in South Korean airspace, are aimed 
at slowing North Korea's advances.
    I am not sure we have seen evidence of that. Unfortunately, 
what we have seen is rising tensions between Washington and 
Pyongyang.
    Kim's rhetoric and the President's rhetoric has thrown fuel 
on the fire and I believe it has escalated the risk of 
conflict. Let me just say, as I've said before, more than 9 
months into this administration we still have no Assistant 
Secretary of State for East Asia and the Pacific, no Under 
Secretary for Arms Control and International Security, no 
Ambassador to South Korea, and I worry what may happen later on 
in this month when the President travels to Asia.
    So there is lots and lots of work to be done and I am glad 
that this committee is staying focused on this issue. I hope we 
will hear from the administration again soon on its path 
forward.
    This is especially important in light of the many senior 
level discussions with allies and partners in Asia due to take 
place over the next few weeks in conjunction with the 
President's trip.
    So I'll wrap up because I want to make sure most of our 
time today is spent hearing from our witness. Again, we are 
fortunate to have you, Mr. Thae, with us today.
    Thank you, Mr. Chairman. I yield back.
    Chairman Royce. Thank you, Mr. Engel.
    So this morning, members, we are pleased to be joined by 
Mr. Thae Yong-Ho. He is the former Deputy Chief of Mission, 
Embassy of the People's Republic of Korea in the United 
Kingdom.
    As a former high-ranking North Korean official, Mr. Thae 
can provide us, I think, some unique insights into Kim Jong-
un's regime. And so without objection, the witness' full 
prepared statements will be made part of the record. Members 
are going to have 5 calendar days to submit any statements or 
questions or any extraneous material for the record here today.
    And, Mr. Thae, if you would summarize your remarks, the 
floor is yours. Thank you, Mr. Thae. Yes.

STATEMENT OF MR. THAE YONG-HO (FORMER DEPUTY CHIEF OF MISSION, 
  EMBASSY OF THE DEMOCRATIC PEOPLE'S REPUBLIC OF KOREA IN THE 
                        UNITED KINGDOM)

    Mr. Thae. Chairman Royce, Ranking Member Engel, 
distinguished members of the House committee, thank you for the 
opportunity to be here today.
    First, I would like to express my sincere gratitude to 
Chairman Royce who kept his promise to accommodate my wishes to 
visit the United States and gave me this opportunity to testify 
before the House Committee on Foreign Affairs.
    As you are all aware, I worked at the front line of North 
Korean diplomacy until I defected to South Korea in the summer 
of 2016.
    But my story is quite different from other defectors who 
may have experienced political oppression, inhumane treatment 
in political prison camps, or who left North Korea in order to 
avoid hunger and economic difficulties.
    Rather, today, I would like to tell you about my life as a 
North Korean diplomat, why I defected to the free world, why 
Kim Jong-un is developing nuclear and ICBM programs, and how 
best to deal with the North Korean regime.
    I went through elite educational courses in North Korea 
which could not even be dreamed of by ordinary citizens there. 
At the age of 14, I was sent to China for a special elite 
educational program. More than 20 years of my past 55 years of 
my life were very privileged by North Korean standards. I lived 
and worked in foreign countries such as China, Denmark, Sweden, 
and the United Kingdom.
    The North Korean system provided me with all kinds of 
political privileges and economic benefits during this time and 
in the course of my last posting I was fortunate enough to live 
in the U.K. with my wife and two sons.
    Throughout my life, my family members and relatives were 
all dedicated true Communists. Ironically, however, I ended up 
deserting that system and ideology and I am living in South 
Korea where I do not have any friends or relatives. And today, 
I am even testifying at the United States Congress, which I had 
always been taught to fight against.
    The reason why I gave up all the privileges and economic 
benefit was that I felt I could not let my sons lead a life 
like me as a modern-day slave. I believed the best legacy I 
could leave for my sons was to give them the freedom that is so 
common to everyone in America. Had we not defected, I feared 
that someday my sons would have cursed me for forcing them back 
to North Korea. They were used to online gaming, Facebook 
messaging, email, and internet use. I believed my sons would 
suffer a lot if they returned to the North Korean system.
    Indeed, how could any boys raised in the London educational 
system and familiar with freedom of thought ever go back and 
reacclimatize to a life in North Korea? I could not confiscate 
freedom and enjoyment of liberty from them.
    I could not take back the happy smiles of my sons by 
bringing them back to North Korea. I could not force my sons to 
pretend to be loyal to Kim Jong-un and the North Korean system 
and to shout, ``Long live the Supreme Leader, Kim Jong-un--long 
live the Socialist paradise of the DPRK,'' like I did all my 
life.
    As a North Korean diplomat, everyday activities and 
services were like a leading ceaseless double life, which was 
psychologically difficult. I have to pretend to be loyal to the 
Kim Jong-un regime, even though my heart did not agree.
    I often was asked questions by my British friends which 
caught me flat footed, trying to justify the North Korean 
system when deep down I knew their concerns were fair and 
legitimate. They asked me things such as, how could Kim Jong-un 
prosecute his uncle--why does North Korea continue to appeal 
for humanitarian aid while pouring of millions of dollars into 
its nuclear and missile development.
    Communism has always opposed dynastic transference of 
power--so how then does the Kim family's hereditary leadership 
system prevail so long in North Korea? While dealing with these 
kinds of questions was always painful and they made me 
increasingly realize the deep-rooted contradictions upon which 
the entire North Korean system is built.
    You might think that living as a member of the elite class 
in North Korea is all about luxury goods, fine wines, and abuse 
of power. Yet, the reality for many privileged people in 
Pyongyang is far different. For example, all high-ranking 
leaders have to live collectively in separate apartments 
according to their rank.
    Moreover, getting promoted within this system actually 
requires more sacrifices, reduced freedoms, and an increasing 
risk of your life, even though you may enjoy more economic 
benefits as a result.
    Indeed, if it is discovered that a senior elite may have 
different ideas or express private dissatisfactions then he or 
she could be subject to persecution.
    And as you all know, even the members of the Kim's family 
have been subject to this type of persecution. Such was the 
case with the killing of Kim Jong-un's uncle, Jang Song-thaek, 
and half-brother, Kim Jong-nam.
    Beyond these high-profile incidents, much more has been 
going on beneath the surface over the past 5 years. Hundreds of 
cadres have been persecuted without due process. For example, 
families of former North Korean Ambassadors to Cuba and 
Malaysia were sent to prison camps and nobody knows whether 
they are now alive or dead.
    Former North Korean Ambassador to Sweden and the former 
North Korean Ambassador and Deputy Ambassador to UNESCO were 
also forced to return back to Pyongyang and expelled from the 
foreign ministry after the death of Jang Song-thaek.
    While on the surface the Kim Jong-un regime seems to have 
consolidated its power through this reign of terror, 
simultaneously there are great and unexpected changes taking 
place within North Korea.
    Contrary to the official policy and wishes of the regime, 
the free markets are flourishing. As more and more people get 
used to free and capitalistic style markets, the state-owned 
socialistic economic system becomes increasingly forgotten 
about.
    The welfare system of North Korea has long collapsed and 
millions of civil servants, army officers, and security forces 
are dependent on bribes and state asset embezzlement for their 
survival.
    Citizens do not care about state propaganda but 
increasingly watch illegally imported South Korean movies and 
dramas. The domestic system of control is weakening as the days 
go by.
    Back in 2010, during the Arab Spring, many experts said 
that it would be impossible to imagine such similar events 
taking place in North Korea. These changes, however, make it 
increasingly possible to think about civilian uprising in North 
Korea.
    As more and more people gradually become informed about the 
reality of their living conditions, the North Korean Government 
will either have to change and adapt in positive ways for its 
citizens or to face the consequences of their escalating 
dissatisfaction.
    Until now, the North Korean system has prevailed through an 
effective and credible reign of terror and by almost perfectly 
preventing the free flow of outside information.
    Today, Kim Jong-un thinks that only nuclear weapons and 
ICBMs can help him avoid the continuing disintegration of the 
North Korean system.
    He also thinks that the existence of a prosperous and 
democratic South Korea so close to the border is by itself a 
major threat toward his dynasty.
    While Kim Jong-un has already long had the tools to destroy 
South Korea effectively, he also believes it is necessary to 
drive American forces out of the peninsula, and this can be 
done, he believes, by being able to credibly threaten the 
continental United States with nuclear weapons.
    On top of thousands of artillery pieces and short-range 
missile capabilities long held on North Korean side, the 
potential deployment of battle-ready nuclear ICBMs means the 
threat is not only toward South Korea but also toward America.
    In face of this emerging situation, the U.S. Government is 
now pursuing a policy of maximum pressure and engagement. 
However, it will take some time to assess the effectiveness of 
the current economic sanctions and campaign of diplomatic 
isolation.
    As we wait to see the outcome, we shall seek to continue 
the momentum and even expand targeted sanctions until the North 
Korean regime comes back to the dialogue table for 
denuclearization.
    In the face of the emerging threat, we should strengthen 
the U.S. and Republic of Korea alliance and enhance military 
preparedness in order to prevent potential nuclear and ICBM 
provocations by North Korea.
    The U.S. and Republic of Korea Governments should enhance 
the level of their coordination and communication under the 
slogan of ``We go together.''
    It is a long-established dialogue strategy of North Korea 
to exclude South Korea while communicating only with the U.S. 
The United States and South Korean Governments should frustrate 
this North Korean strategy through strong concerted 
coordination.
    Frankly, Kim Jong-un is not fully aware of the strength and 
might of American military power. Because of this 
misunderstanding, Kim Jong-un genuinely believes that he can 
break the sanctions regime apart once he compels Washington to 
accept North Korea's new status after successfully completing 
the development of his ICBM program and putting the new 
missiles into deployment.
    Some people do not believe in soft power but only in 
military options. But it is necessary to reconsider whether we 
have tried all nonmilitary options before we decide that 
military action against North Korea is all that is left.
    Before any military action is taken, I think it is 
necessary to meet Kim Jong-un at least once to understand his 
thinking and try to convince him that he would be destroyed if 
he continues his current direction.
    We cannot change the policy of terror of the Kim Jong-un 
regime but we can educate the North Korean population to stand 
up by disseminating outside information.
    However, is the United States really doing enough in this 
regard? The U.S. is spending billions of dollars to cope with 
the military threat and yet how much does the U.S. spend each 
year on information activities involving North Korea in a year?
    Unfortunately, it may be a tiny fraction. Yet, we now know 
that the communist systems of the Soviet Union and East 
European countries crumbled as a result of dissemination of 
outside information and the subsequent changes in thinking 
caused among people within this systems.
    Indeed, the Berlin Wall would not have easily collapsed if 
East German people did not regularly watch West German TV.
    To sum up, much more needs to be done to increase the flow 
of information into North Korea. German reunification could not 
have been achieved if the Hungarian Government did not open its 
border with Austria to provide an exit route for the East 
German people.
    Now some 30,000 North Korea defectors have come to South 
Korea. In China, however, tens of thousands of North Korean 
defectors are living without papers under the shadows and are 
being physically or sexually exploited.
    While the U.S. should continue urging China and Russia to 
support more economic sanctions, it should also do more to stop 
Beijing repatriating defectors back to North Korea.
    The world was united to abolish the South African 
apartheid. Now it is time for the world to stop the widespread 
and systematic human rights violations in North Korea, which 
are tantamount to the crimes committed by the Nazis.
    Mr. Chairman, this concludes my opening statement. Thank 
you again for this opportunity and I look forward to your 
questions.
    [The prepared statement of Mr. Thae follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Chairman Royce. Thank you very much, Mr. Thae.
    You made clear in your remarks that as more and more people 
gradually become informed about the reality of their living 
conditions and what they are told is a paradise but they found 
out how people are living in South Korea or in the rest of the 
world that North Korea will either have to change and adapt in 
positive ways for its citizens or to face the consequences of 
the people's escalating dissatisfaction.
    As you said, it has been a powerful impact in Eastern 
Europe and the Soviet Union and can have the same effect in 
North Korea. So my question is what kind of messages should we 
focus on sending into North Korea?
    Who are the best? Is it former defectors who have a story 
to tell, who can report the news of what they have seen in the 
outside world?
    And should our message to, as you said, the elites--should 
our message to the elites be different than the message that we 
would help people send to the common people in North Korea?
    You have made clear that both are increasingly dissatisfied 
with the regime. So what would be your suggestion?
    Mr. Thae. First, the North Korean system can only be in 
place by making its leader a god. So we have to find out where 
is the Achilles heel.
    Now, after 5 years in power, Kim Jong-un still cannot tell 
the North Korean people his date of birth. Nobody in North 
Korea knows his date of birth.
    Nobody in North Korea knows who his mother is. Nobody in 
North Korea knows his half-brother, Kim Jong-nam. Nobody in 
North Korea knows that he is the only third son of Kim Jong-il 
and now Kim Jong-un is brainwashing the North Korean population 
that he is the only bloodline of Paektu Mountain.
    But after 5 years of this kind of continuous brainwashing 
he still cannot provide the North Korean population with a 
single photo with his grandfather, Kim Il-sung. Why?
    Because he was a hidden boy by his father. He was kept 
secretly and silently in Switzerland throughout the years. But 
a majority of the North Korean population do not know this 
fact.
    So we should disseminate the information about him first, 
who he is--why, even now, Kim Jong-un cannot present even a 
single photo with his grandfather.
    Because his grandfather himself didn't know the existence 
of this boy. The majority of the North Korean people do not 
know that his father, Kim Jong-il, had several ladies to live 
with.
    So we should tell the North Korean people that Kim Jong-un 
and his father, Kim Jong-il and his grandfather, Kim Il-song, 
the whole member of Kim dynasty are not gods.
    That is the first thing we should do and we should 
disseminate the basic concepts of freedom and human rights. 
North Korea is a country with a system of classification.
    The population of North Korea is divided into different 
classes and we have to tell the North Korean population how 
stupid this system is. It is similar to a feudal class system 
from several hundred years ago.
    So we have many things to tell the North Korean people that 
it is not a paradise. It is not a socialist welfare system. It 
is the worst inhumane system in human history.
    Chairman Royce. In terms of our dialogue with Beijing, what 
should we be pressing Beijing on with respect to North Korea?
    Mr. Thae. I think we should continue the current momentum 
to inducing the Chinese Government to support economic 
sanctions against North Korea. But that is not enough.
    We should urge the Chinese Government not to repatriate 
North Korean defectors back to North Korea. The Chinese 
Government knows well that once these defectors are repatriated 
back to North Korea, they would be the subject of torture.
    They would be the subject of enforcement of labor. So we 
should let the Chinese Government open the route to South Korea 
for all the hiding North Korean defectors in China.
    I mentioned a little bit about the cooperation between the 
West German Government and Hungarian Government during the 
process of German reunification.
    If the Chinese Government helps North Korean defectors to 
go freely to South Korea, I think that there could be a massive 
exodus of North Korean population to China through their 
borders with China.
    Chairman Royce. To South Korea through China?
    Mr. Thae. Yes, that is right. And if the Chinese open its 
routes for defectors to South Korea, I think the North Korean 
system would collapse in a very short span of time.
    Chairman Royce. Thank you, Mr. Thae.
    We go now to Mr. Eliot Engel, our ranking member.
    Mr. Engel. Thank you, Mr. Chairman.
    Mr. Thae, your comments are very riveting, very 
interesting, and very important to give us an insight.
    You know, when I was there, Kim Jong-il was the leader and 
I know that he was referred to as the Dear Leader and his 
father was referred to as the Great Leader--Kim Il-song.
    I am wondering if Kim Jung-un has a similar title. You walk 
into every room. There were pictures of the two of them on the 
wall. It was something very, very scary and eerie. Is that 
still the case with Kim Jong-un?
    Mr. Thae. Of course, and Kim Jong even is upgrading his 
propaganda campaign to make him appear as a god of the North 
Korean people.
    Mr. Engel. Thank you. So let me ask you, is there any 
scenario you envision in which North Korea might freeze or 
dismantle its long-range missile or nuclear weapons program? 
What would be the best means to persuade North Korea to do so?
    Mr. Thae. I think, first, Kim Jong-un still believes that 
he can achieve this goal. So we should continue to tell the 
North Korean leadership and, if possible, Kim Jong-un himself 
that America will not accept North Korea as a nuclear-armed 
state.
    North Korea has seen how India and Pakistan achieved that 
goal and they want to follow the example of India and Pakistan. 
But we should clarify that this will not be the case for North 
Korea.
    Mr. Engel. From what you know about the internal dynamics 
of the North Korean political and economic systems, how might 
increased external pressures such as unilateral and 
multilateral sanctions lead the North Korean Government to 
change course? Would it? If not, why not?
    Mr. Thae. Oh, as I've said, the current economic sanction 
so far is not enough. So we should increase more targeted 
sanctions. And second, we have to wait and see the 
effectiveness of the current economic sanctions.
    North Korea is used to that kind of sanctions and North 
Korea has a certain amount of stockpiles of war. So we have to 
wait until when North Korea opens its doors for war stockpiles.
    When North Korea starts to open its war stockpiles of food 
and oil, then we may see how long North Korea can sustain.
    Mr. Engel. Thank you.
    You know, one of the things that shocked us when we first 
came into Pyongyang were these massive billboards--propaganda, 
political propaganda ones--and one of them had--I don't know if 
Joe Wilson is here--he was with me.
    But he took a picture of one of those posters and it was a 
North Korean soldier putting a bayonet in the head of an 
American soldier, and we knew it was an American soldier 
because his helmet said USA on it.
    It was very, very frightening, very scary. And we mentioned 
it, of course, to all the North Korean authorities. But one 
thing stuck in my mind.
    When we were talking about the nuclear program, one of the 
higher--we never did meet with the Dear Leader but we met with 
what I think is the next person whose name I think was also Kim 
and we were told blankly, and it is the one thing I came home 
from, they said--he said Saddam Hussein didn't have nuclear 
weapons and look how he wound up--look what he wound up.
    And it really-really showed me a bit of the mind set about 
how they really think that the nuclear weapons are the key to 
being players. Otherwise, South Korea would run circles around 
them because of the prosperity and the economic opportunities 
and the dynamism of the Seoul regime.
    But they, even back then--this was probably about 12 years 
ago--talked about nuclear weapons as their key to success in 
the future. Is that still the mind set?
    Mr. Thae. Yes. Still the Kim Jong-un regime believes that 
they can guarantee the permanent system of North Korea by 
nuclear and ICBM because they think that a prosperous and 
democratic South Korea itself is threatening the existence of 
North Korea itself.
    That is why they think and believe that ICBM tipped with 
nuclear weapons in the guarantee for their survival.
    Mr. Engel. Let me ask you one brief question. My final 
question is have you observed any changes in North Korea in 
recent years that might suggest that an expanded United States 
information campaign targeting audiences inside North Korea 
might be more successful than past efforts.
    How would you go about changing North Korea's perception of 
the outside world?
    Mr. Thae. When the South Korean cultural content first 
arrived in North Korea through smuggling, North Korean 
authorities tried every measure to prevent it even by 
conducting public executions and rampant arrest of the people 
who watch South Korean movies and dramas.
    But whatever measures they take, the demand for South 
Korean cultural content increased. So the North Korean regime 
learned that that kind of enforcement cannot solve the problem.
    That's why for the past few years they are now developing 
their own footage to prevent the North Korean population from 
watching South Korean movies and dramas. How?
    They decided to open the film archives of Kim Jong-il and 
decided to filter for those foreign films from former Soviet 
Union and former socialist eastern European countries to find 
out the films which can meet the demand of enjoyment for North 
Korean people.
    So now if you are in the Pyongyang streets there are a lot 
of stores where they sell those DVD discs with hundreds of 
Russian films, former East German films, Chinese films and even 
these days American cartoons like Tom & Jerry, Lion King or 
Beauty and the Beast, of these even cartoons for the children.
    So they learned that in order to fill the demand for 
outside cultural contents they should do something. So that is 
why this proved that the North Korean regime is very afraid of 
dissemination of information.
    So I think if we continue to disseminate and if we continue 
to make tailor-made content for North Korea then I think we can 
make a change in North Korea.
    Up until now, those cultural contents of South Korea which 
North Korean people are watching are the contents which are 
produced for South Korean audience, not for North Koreans. So 
they just watch it for their amusement and entertainment.
    But those cultural content so far do not actually relate 
the North Korean citizens' way of thinking. Those cultural 
contents cannot make North Koreans critically analyze the life 
in North Korea.
    That's why we should make tailor-made contents which can 
educate the North Korean population. And I think it is time we 
should invest to make that kind of very simple tailor-made 
content which can tell the basic concepts of freedom, human 
rights, and democracy.
    Mr. Engel. Thank you very much.
    Chairman Royce. We go to Mr. Chris Smith of New Jersey.
    Mr. Smith. Thank you so very much. And Mr. Thae, thank you 
for your courage and for being here providing your insights and 
observations.
    I remember during the worst days of the Cold War it used to 
be said that the Iron Curtain isn't soundproof, and your idea 
of really ratcheting up the freedom broadcasting couldn't come 
at a more timely point in this terrible escalating conflict. So 
thank you for that, and that has to be followed up on.
    Let me ask you two things. First, you've made a stunning 
observation and recommendation that if China were to receive 
defectors and facilitate their passage into South Korea that 
that could truly debilitate this dictatorship and lead to its 
demise. My question--China, and I've held several hearings on 
this--China violates the Refugee Convention with impunity.
    The whole idea of rapprochement--they send people back who 
didn't go to the gulag or they benefitted by trafficking those 
people who come in, particularly the women, into sex 
trafficking and labor trafficking.
    So they are making money out of it and they are also 
violating the Refugee Convention. My hope is that your words to 
the Chinese Governments as well as our own Governments will act 
upon that because that is a very benign and certainly a way of 
trying to de-escalate and lead to an end to this escalating 
crisis. So thank you for that. You might want to speak to that 
further.
    Secondly, we underestimate the whole idea of Juche and the 
cult of personality. Emperor Hirohito and the fanaticism of 
imperial Japan was based on the belief that he was God and, as 
you have said, that is exactly how they look at the Kims, 
particularly Kim Il-sung, and I think there is a gross under 
appreciation of how that leads to fanaticism and the 
willingness to die for now the new Kim because he is God.
    And I wonder if you could shed some insights into whether 
or not the people still believe that and to what degree, 
particularly in the army. We know they have 1 million people 
active, about 5 million<greek-l>five deg. or so ready reserve. 
I mean, that is a potent force, coupled with nuclear, where 
they are willing to die for God.
    Mr. Thae. First of all, about the defectors' case in 
China--if you visit the Chinese border with North Korea, you 
can easily learn that the Chinese Government has built up the 
extensive network of catching the North Korean defectors along 
its borders and if a North Korean defector is caught, then he 
or she could immediately be repatriated.
    And if we visit those borders these days, the Chinese have 
built more fences, more river banks in order to prevent the 
vast exodus of the North Korean population.
    Now the Chinese Government is saying that they are very 
much concerned of any possible refugee crisis if the North 
Korean system collapses. But that is not really the truth 
because North Korean defectors and the North Korean population, 
they have a place to go once they arrive China.
    They have South Korea, which would welcome to accommodate 
all North Korean defectors from China. So the Chinese argument 
that they would cover or they would be burdened by all the 
economic costs of North Korean refugees is not true because 
there is the Government of South Korea which can accommodate 
all those North Korean defectors.
    So we continue to ask the Chinese Government to open the 
exit route for North Korean defectors to go to South Korea. We 
should ask the Chinese Government to establish camps for North 
Korean defectors for temporary stay and for continuation of 
their journey to South Korea.
    I think that is the thing we should do. And China is the 
member of Refugee Convention. That's why, as a big country, the 
Chinese Government has an obligation to observe its 
international obligation by letting North Korean defectors to 
go to China.
    And the second thing, the personal culture in North Korea, 
it is really, really surprising because in North Korea when you 
reach the age of four or five from the age of kindergarten you 
are brainwashed.
    For instance, every morning the young children of 3 or 4 
years are forced to bow in front of the portraits of Kim Jong-
il, Kim Il-sung, and Kim Jong-un. Then they are offered a cup 
of milk.
    They should stand up and express their thanks before they 
drink the milk to Kim Jong-un. When there is a harvest of 
apples, the apples will be distributed to the population as a 
gift of Kim Jong-un.
    So the Kim Jong-un regime established a full scale stupid 
brainwashing system in order to depict Kim Jong-un as the god.
    So I think we should try or concentrate efforts to educate 
the North Korean people that Kim Jong-un is not a god. He is 
just a normal human being and the Kim family is not the family 
of the god.
    And we should continue to tell the North Korean people--we 
should touch the Achilles heel of Kim Jong-un regime. That is 
my viewpoint.
    Mr. Smith. Thank you.
    Chairman Royce. Albio Sires of New Jersey is next in the 
queue.
    Mr. Sires. Thank you, Mr. Chairman.
    You know, I am fascinated by your comments but I am not 
really surprised because I've seen the indoctrination process 
in other countries and how it works.
    I am concerned with the nuclear program. It seems that they 
have developed this nuclear program very rapidly. Can you talk 
a little bit about who's assisting them? Because it seems that 
it is so rapid that somebody had to assist them.
    Is it China? Is it Iran? Is it Russia? In your opinion, is 
anybody involved in assisting with their nuclear proliferation?
    Mr. Thae. Oh, it is common knowledge that North Korea's 
basic knowledge of nuclear weapons all came from the former 
Soviet Union.
    In late of 1960s and the '70s it was the policy of the 
former Soviet Union to control all the nuclear experts and 
nuclear industries of former socialist countries by inviting 
and educating all those nuclear experts in Russia.
    So North Korea started to send its young nuclear experts to 
Russia's nuclear institute from late of 1950s. So, actually, 
North Korea accumulated the vast knowledge of making these 
nuclear weapons from Russia.
    But, of course, at that time the Soviet Union Government 
did not intend to tell North Korean nuclear experts how to make 
nuclear weapons but they educated the North Korean nuclear 
experts in order to expand their nuclear power industry and in 
order to control the whole socialist world of nuclear energy.
    But the North Korean regime took advantage of this 
education system built in '50s and '60s and they accumulated 
the knowledge on how to make it.
    But in the past 5 years, we witnessed that there is all of 
a sudden a kind of quick acceleration of this process of ICBM 
and nuclear development. So how was it possible?
    We learned that in March 2013 the Kim Jong-un regime, the 
Workers' Party of Korea, adopted a policy of simultaneously 
developing nuclear weapons and the economy, which is called the 
Pyongyang policy.
    Then what is the difference between Kim Jong-un's policy of 
nuclear development with his father and with his grandfather? 
Throughout the history of North Korea, Kim Il-sung and Kim 
Jong-il never stopped developing nuclear program.
    But the main difference between Kim Jong-un and Kim Jong-il 
is that Kim Jong-un wants to achieve that goal in a very short 
span of time and in a very open way.
    During Kim Jong-il's period, the North Korean regime 
developed a nuclear program under the pretext of denuclearizing 
the Korean Peninsula. So in other words, when the Chinese wants 
to force North Korea to stop it, they always justify to the 
Chinese Government that, hey, Chinese brother, we need this 
nuclear weapon in order to lend the ears of Americans.
    So our final goal is not the acquisition of nuclear weapons 
but to reach a kind of deal with Americans. So they cheated the 
Chinese again and again and again. But these days, no. The 
justification is different.
    North Korea openly stated to China that we want to achieve 
this goal openly at any cost. And secondly, from March 2013, 
the North Korean regime decided to invest all available 
materials and finance for the completion of nuclear weapons.
    So that is the main difference between the present North 
Korean regime and the previous Kim Jong-un's period.
    Mr. Sires. Thank you.
    Chairman Royce. We go now to Congressman Dana Rohrabacher 
of California.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and 
thank you very much to our witness today. I appreciate the 
insights that you are providing us.
    A couple of things that you've mentioned I'd like to get 
some clarification on. Do the people of North Korea know that 
Kim Jong-un, if I am pronouncing it correctly, was educated in 
Switzerland and at an elite private school? Do they know that?
    Mr. Thae. A majority of the North Korean population didn't 
know that he was educated in Switzerland. No.
    Mr. Rohrabacher. Don't we have broadcasts going into North 
Korea? Why would the people of North Korea not know that what 
he is doing to them he was spared and that he lived in a 
totally different life than what they are expected to live? Are 
broadcasts not being aggressive enough if the people of North 
Korea don't know that?
    Mr. Thae. Oh, but maybe about those--you know, the balloons 
of the pamphlets or the numbers of the radios have reached 
inside of North Korea in secret ways.
    But so far, the effect of that kind of devices is not very 
efficient. So I think in order to vastly disseminate the 
information to the North Korean people I think we should 
develop new ways to do it.
    For instance, one thing I have in mind is that now we can 
have a kind of satellite TV transmissions for North Korean 
people and we can smuggle in the small devices like DMB things 
which is the similar size of smart phone or radio so let the 
North Koreans watch the South Korean and American TV networks 
through that kind of device by the transmission from satellite.
    Mr. Rohrabacher. That sounds like a--frankly, that sounds 
like an effective use of money as compared to some of the other 
things that we are doing to try to deal with this threat 
because if we do not deal with this threat we are putting not 
only the people of South Korea but putting the American people 
in severe jeopardy here--in danger.
    Let me ask--you mentioned--how is religion treated in North 
Korea?
    Mr. Thae. Oh, the North Korea system is based on 
contradictions. For instance, the North Korean constitution 
allows the freedom of belief.
    But in North Korean society where the constitution does not 
prevail. The charter of the Workers' Party of Korea and the 
teachings by Kim Jong-un prevails over the constitution.
    So if you read the charter of Workers' Party of Korea and 
the teachings of Kim Jong-un and the works of Kim Il-sung and 
Kim Jong-il, it clarified very clearly that two-tier ideology 
and Kim Il-sung and Kim Jong-ilism should be the only idea of 
North Korean society.
    Mr. Rohrabacher. Do they permit people to go to church?
    Mr. Thae. There are a few churches only in Pyongyang just 
for show for foreign audiences, not for North Korean people.
    Mr. Rohrabacher. Do the North Korean people have, as I have 
understood has happened in China in the beginning, worship 
services in their homes?
    Do they get together and pray and is there a religious 
movement in--South Korea has a tremendous expansion of faith 
and is that anywhere experienced in North Korea?
    Mr. Thae. If that kind of practice is detected by the 
regime, then it could be the imminent subject of persecution or 
public execution. That is why I don't think that the people 
would gather for that kind of the religious practice. But I am 
not quite sure whether there are individuals who do that kind 
of belief practices secretly inside their homes. But in my 
life, I haven't seen that kind of secret practice of religious 
belief.
    Mr. Rohrabacher. Well, we need to be the champion of these 
oppressed people around the world, especially when it comes to 
Christians who are oppressed like this because our own national 
security will be enhanced by that.
    So doing what's right by religious people being persecuted 
for their religion can probably help us, and thank you very 
much for sharing your insights with us today.
    Mr. Thae. Thank you.
    Chairman Royce. Representative Bill Keating of 
Massachusetts.
    Mr. Keating. Thank you, Mr. Chair. And Mr. Thae, thank you 
very much for your desire and courage to be here.
    Just this morning I was at a breakfast of experts 
discussing North Korea's threat to us as well as their 
rationale for many of their activities.
    They suggested that their ICBM and their nuclear 
development was to preserve the regime from international 
threats but also they said it is there for domestic support as 
well.
    And you had said there is an escalating dissatisfaction 
among the people. So could you explain their rationale and 
saying is there a group that sees support of the regime because 
of that nuclear development?
    Mr. Thae. I don't understand your last question. What was 
it?
    Mr. Keating. That Kim Jong-un is developing nuclear weapons 
and ICBMs just to gather support and stability in his regime in 
his country, within it.
    You said that it is de-escalating, his support. So what is 
the rationale as other people that see that development as 
stabilizing and give the regime support as a result?
    Mr. Thae. Yes. The first, Kim Jong-un is very well aware 
that the North Korean system is in the process of 
disintegration. That is why he looked for any solution to do it 
and he believes that a ICBM tipped with nuclear weapons can 
provide him a kind of legitimacy of the leadership for next 
several decades. Why? Yes----
    Mr. Keating. So the people inside feel that this will help 
them from an outside threat, as they perceive it. Is that 
correct?
    Mr. Thae. Both ways. Kim Jong-un thinks that with the 
nuclear weapons he can guarantee the sustainability of his 
rule.
    And the second thing is that in order to get the legitimacy 
of long-term leadership, something that he wants to convince 
the whole North Korean elite and the people that he is the one 
who made North Korea a nuclear power and he wants to convince 
the North Korean population that once he acquired these nuclear 
weapons he can easily break the sanctions scheme with America.
    Mr. Keating. Okay. Thank you very much. That's the 
rationale. This is a really tough question I am going to ask 
you, one we should all be asking, frankly, because there is a 
great deal of discussion, even this morning, that there is 
indeed a likelihood of military intervention preemptively by 
the U.S. as a defense.
    And here is my question: What's going to happen when the 
missiles stop? What's the next day going to be like? Who is 
going to be in charge? How are we going to keep stability?
    What is China going to do? What are we going to do with the 
human impact of that as well? As someone that has been in 
Europe, will our partners be on board? What are your thinkings 
on this very important issue?
    Mr. Thae. After Kim Jong-un finishes his completion of 
nuclear weapons, then he wants to open a dialogue and deal with 
America.
    He would continue to blackmail America with a possible 
nuclear war with America and may ask America to pull American 
forces from South Korea.
    Mr. Keating. Right. I apologize. But what would happen--
here is the scenario, that if we did that----
    Chairman Royce. If I could just interrupt for a minute. He 
has a follow-up point that he wants to make about what--I think 
about what would happen next to South Korea if that happens. 
Then we will continue with your question.
    Mr. Keating. Oh, if I could give him time to answer that. 
Thank you.
    Mr. Thae. Yes. So what he thinks--what his roadmap and 
strategy is like this. Once he has this nuclear weapon and 
ICBM, he wants to make a deal with the Americans by asking for 
scaled-down joint military exercises against North Korea and, 
finally, pull American forces out from the Korean Peninsula.
    If America does not accept his offer, then he may continue 
to blackmail, like, another test fire or ICBM or something like 
that so that it will compel Washington to accept his demands.
    And Kim Jong-un thinks that if American forces are out of 
the Korean Peninsula, the next day the foreign investment would 
follow the American forces, and then when the foreign 
investments are out of South Korea then the elite and the 
companies of South Korea would follow the exit.
    So he thinks that he can create a kind of massive exodus in 
South Korean system if he has these nuclear weapons. That is 
what North Korean regime learned from the case of South 
Vietnam, when America pulled its troops out from South Vietnam 
in 1974.
    At that time, I think we should remember that the army of 
South Vietnam was number four in military terms. But when 
America pulled its forces from South Vietnam, later the foreign 
investments left. When foreign investments left South Vietnam 
then the elite of South Vietnam ruling class started to flee. 
So within 2 years, within 2 years in South Vietnam there was a 
kind of huge trend of fleeing.
    So North Vietnam waited for 2 years and then started an 
offensive in 1976 and all of a sudden the huge military 
establishment of South Vietnam was useless to defend its 
system.
    So the North Korean regime learned all these processes. 
That's why they want to follow the same suit on South Korea. 
That's why with that ICBM they want to change the current tide 
of struggle between North Korea and South Korea.
    Mr. Keating. Wow. Thank you. I yield back.
    Chairman Royce. Mr. Mike McCaul of Texas.
    Mr. McCaul. Thank you, Mr. Chairman.
    I think this is one of the most complex challenging foreign 
policy issues of our time and whenever a power becomes a 
nuclear power you can't take it away from them.
    And we saw that happen in Pakistan in the A.Q. Khan network 
proliferating to Iran, North Korea. I think this is the result 
of a policy of neglect in prior administrations, both 
Republican and Democrat, not dealing with North Korea and now 
we are in a situation where we are today where I don't see a 
whole lot of good options on the table.
    It is a fact that he has this ICBM capability, that he's 
miniaturized the nuclear warheads. By all accounts, the IC, 
while maybe not definitive, we think he may have that 
capability now as well.
    And I talked to the Ambassador from Japan the other day and 
they are terrified of the prospects. I don't know now to get 
rid of this guy, and we talk about regime change. We talk about 
opening channels, letting people defect and a lot of different 
things.
    We know China is the strongest country to deal with North 
Korea and it is in their best interest, in their back yard. And 
yet, we are seeing satellite photographs after the U.N. 
sanctions was voted defying those sanctions with boats going 
back and forth between China and North Korea.
    So that hasn't had a whole lot of impact. So, you know, it 
has been very interesting. I mean, let me commend you for your 
courage coming here today in light of the dangers and the 
obvious risks that you're taking. I think you're a courageous 
individual.
    But they are almost deified, this dynasty. So I don't--I 
just--how do we change that? First question.
    Second one is if the military option is on the table and 
Secretary Mattis has warned against it, but if that happened 
what would the Peninsula look like? What would be the aftermath 
of the military option?
    Mr. Thae. The first, I think many people do not understand 
why the North Korean regime believes that nuclear weapons can 
solve their problems and why Kim Jong-un's regime is so much 
obsessed with this kind of nuclear weapons program, which can 
do nothing but all those, you know, sanctions or whatever.
    But from the perspective of the North Korean regime and the 
Kim Jong-un regime, so far they really believe in this kind of 
goal can be achieved.
    So for instance, now let's review about a U.S. and R.O.K. 
military alliance. Let's compare the military alliance between 
South Korea and America and a military alliance between China 
and North Korea.
    The North Korean regime learned that there are a lot of 
loopholes in the military alliance between South Korea and 
America. For instance, in that military alliance treaty there 
is not any clause of compulsory involvement in military 
alliance with South Korea.
    So if a state of war or any kind of war happens on the 
Korean Peninsula, both sides would discuss. That is the clause. 
There is nothing legally binding.
    But if you read the North Korean military alliance with 
China, there is a compulsory clause. If war happens on Korean 
Peninsula, then Chinese side will automatically naturally be 
involved in this war.
    And secondly, if we see the military alliance treaty 
between South Korea and America, there is a kind of very loose 
clause how this treaty goes on and how this treaty breaks down.
    If one party of this treaty says goodbye 1 year in advance, 
then this military alliance would disappear. That is the 
present reality. But if we read the North Korean military 
alliance with China, it is a kind of divorce agreement.
    If one of the parties do not agree to break this treaty, 
then this treaty would last again and again and again. So I 
think we have to cover up all those loopholes in military 
alliance between R.O.K. and America.
    That is why North Koreans still believe that if they have 
these nuclear weapons and continue to blackmail and it can make 
the strategists in Washington to think whether America is ready 
to sacrifice their citizens in return for protecting the whole 
South Korea territory and it strongly believes to do that 
because they learned from the history about the lessons of 
Acheson line.
    In January 1950, then the Secretary of State, Acheson, drew 
that Acheson line. Actually, that is the line of defense 
between South Korea and Japan. So at that time, America did not 
include South Korea as their own sphere of protection.
    That prompted the decision of Korean War by Stalin and Kim 
Il-sung? Why? Because Soviet Union succeeded in nuclear tests 
in August 1949 and after the success of nuclear tests by Soviet 
Union the strategists in Washington thought how to prevent any 
kind of accidental nuclear war with the Soviet Union.
    So they decided to draw a line of defense and 
unfortunately, they drew that red line not on 38th Parallel but 
the place on the sea between South Korea and Japan. So from 
these precedents of Vietnam case, Korean War case, even Chinese 
case, because the Chinese Communist Party also succeeded in 
driving American forces out from Taiwan in 1979 by completing 
its ICBM program.
    So from these precedents in history, North Korean 
communists learned that once they acquired this technology and 
means to attack America and if they continue to blackmail until 
America and Washington accepts their deal, they can prevail in 
this game. That is their strong belief.
    And the second thing about the military, the option, of 
course, I strongly believe that if there is any preventive or 
surgical strike or whatever, I think the war will be won by 
America and South Korea.
    There is no doubt about it. But we have to see the human 
sacrifice from this military option. Now there are tens of 
thousands of North Korean artilleries and short-range missiles 
are ready to fire at any moment along the military demarcation 
line and North Korean officers are trained to press the button 
without any further instructions from the general command if 
something happens on their side.
    So if there is any sound of fire or bomb or strike from 
Americans, the military artilleries and short-range missiles 
will fire against South Korea. And we have to remember that 
tens of millions of South Korean populations are living 70 to 
80 kilometers away from this military demarcation line, a very 
short distance of range of fire--and nobody can calculate but I 
think certain human sacrifice would happen because of this 
military option.
    So as I've said, there are tremendous changes that are 
taking place inside North Korea in spite of this reign of 
terror by the Kim Jong-un regime. If we are determined to use 
and expand our soft power, I think one day we can reach the 
same goal we achieved with the former Soviet Union and those 
former East European socialist countries.
    Mr. McCaul. Very insightful. Thank you.
    Chairman Royce. Representative Tulsi Gabbard of Hawaii.
    Ms. Gabbard. Thank you, Mr. Chairman.
    Thank you very much for your courage and your openness and 
being here to share your story and experience not only with us 
but with everyone who is watching this.
    To follow up on your last statement, so what you are saying 
is that if there is even a very limited preemptive military 
strike from the United States that this automatic response 
using the artillery and short-range missiles would occur. Is 
that right?
    Mr. Thae. Yes, that is right.
    Ms. Gabbard. You spoke earlier in your testimony about 
exhausting all diplomatic measures before turning toward 
military action and you mentioned about the need to meet with 
Kim Jong-un directly.
    Mr. Thae. Yes. That is right.
    Ms. Gabbard. What would need to happen in that conversation 
to create even just the beginnings of a process that would 
result ultimately in dismantling and denuclearization of the 
Peninsula? And how would that be different from previous failed 
efforts in the past?
    Mr. Thae. Oh, I think, first of all, we should tell Kim 
Jong-un that the North Korean nuclear case is quite different 
from India, Pakistan, or China because India and Pakistan 
achieved their goal without making any enemies with the big 
powers like America, China, or Russia.
    So that is why in reality there was not big country who was 
so serious to stop the nuclear arming in India and Pakistan. 
But the North Korea case is different because North Korea wants 
to achieve that goal by blackmailing, by threatening America's 
interests and the American continent.
    So that is the great difference, though. So we should tell 
Kim Jong-un that his goal to achieve the nuclear status cannot 
be achievable because as long as America will not accept North 
Korea as a nuclear state forever.
    We have to tell him correctly, and we should tell Kim Jong-
un that America is ready to use all military options if Kim 
Jong-un continues this process and we should tell Kim Jong-un 
that if Kim Jong-un stops this process and gives up his 
ambition of ICBM and nuclear development, America is ready to 
help Kim Jong-un to build his economy and to make North Korea a 
prosperous country. I think that is the point we should 
directly deliver to Kim Jong-un.
    Ms. Gabbard. You know, it has been spoken about how one of 
the major reasons why Kim Jong-un is holding and tightening his 
grip on these nuclear weapons is as a deterrent against any 
attempts by the United States or others to topple him and his 
regime, thinking that this will be the only thing that will 
protect him.
    Why is it that if the United States sits down directly with 
Kim Jong-un that you think he will react positively to a 
message of we will help you--make sure that your people and 
your economy prosper? That doesn't appear to seem something 
that he's been concerned about in the past.
    Mr. Thae. Oh, as I've said that Kim Jong-un and the North 
Korean regime believes that their rival is South Korea, is the 
biggest threat to the North Korean system itself because Kim 
Jong-un is very aware that the North Korean population are 
watching South Korean movies and dramas.
    He knows that the minds of North Koreans are changing 
toward South Korea. So he needs a kind of permanent guarantee 
to protect his dynasty from that kind of gain and he strongly 
believes that nuclear weapons can be used as a kind of very 
strong defense of his dynasty.
    So I think we should tell Kim Jong-un that this cannot be 
the effective way for his sustainability of his leadership and 
rule in North Korea.
    Ms. Gabbard. And you've talked about a little bit of a 
change in the current in the feeling of the North Korean 
people. Given the threats upon anyone who expresses even a 
little bit of dissent or disagreement, do you think Kim Jong-un 
or his regime is even aware of this change in currents of the 
North Korean people?
    Mr. Thae. Yes, he's very well aware of that because he has 
a very good network of reporting of the happenings inside of 
North Korea and so far the Kim Jong-un regime has taken huge 
measures to prevent the North Korean population from watching 
South Korean movies and dramas.
    But it turned out to be a failure, and also they threw out 
the system of free market. The North Korean regime tried to 
prevent the escalation of a free market system in North Korea 
but failed. So now North Korea is at the stage of more or less 
accepting this trend of the free marketization process in North 
Korea.
    So they know quite well of this disintegrating process.
    Chairman Royce. We need to go to General Scott Perry of 
Pennsylvania.
    Mr. Perry. Thank you, Mr. Chairman.
    And Mr. Thae, we are impressed by your courage and we are 
privileged to have you here today.
    Would there be any effect at all on North Korea being named 
a state sponsor of terror once again? Would that have any 
effect whatsoever to the regime or their actions?
    Mr. Thae. I think that that can be very helpful because 
once North Korea is reregistered as the state sponsor of 
terrorism, it can be easier to drive North Korea from all 
international financial systems and we can also convince the 
other partners of the world to detect or stop all those--the 
channels North Korea uses these days to fund their nuclear 
development.
    Mr. Perry. It seems to me that a big part of our strategy 
should be and is the relationship with China and North Korea. 
But it also seems to me that China isn't forthcoming with their 
agreements.
    They water down the agreements. They don't follow the 
agreements that they have. Is China really the lynchpin that we 
think it is? Is it the center of gravity? Can they make the 
difference?
    If they stop--where China is--90 percent of North Korea's 
trade is with China. You know, coal alone $1 billion annually. 
If China would live up to its agreements can it have the effect 
that we hope it would with North Korea? Can it bring Kim Jong-
un; not the people, unfortunately, but can it bring the regime 
to its knees?
    Mr. Thae. First of all, I would like to avail this 
opportunity to tell you that during the Trump administration's 
short span of time America has made a great success in 
convincing Chinese to take more sanctions against North Korea.
    But meanwhile, we should continue to ask the Chinese to 
stop and crack down on all those smuggling networks between 
North Korea and China because if the Chinese Government 
officially limits the trade with North Korea it can easily 
produce another negative effect by more smugglings between 
China and North Korea because along the border line between 
China and North Korea there are hundreds of private traders, 
small companies who are smuggling and who are involved with 
dealing these illicit activities with North Korea.
    And so far, the Chinese Government has been reluctant to 
crack down all these other smuggling networks between China and 
North Korea.
    So I think it is time you should raise the issue of this 
smuggle with the Chinese Government and if Chinese Government 
further upgrades the level of sanctions I think it will create 
a big pain on the Kim Jong-un regime.
    Mr. Perry. Could that Chinese smuggling be used to our 
advantage regarding the information flow into North Korea? 
There is one thing to get the information there whether you 
broadcast, whether you somehow smuggle it in, DVDs, thumb 
drives, what have you, but I also wonder about the other side 
of that equation, the North Korean people's ability to access 
it. Is that a possibility, since you mentioned it?
    Mr. Thae. Oh, it has two aspects. For instance, I think if 
the possibility of smuggling is expanded there can be more 
opportunity of smuggling these devices into North Korea.
    But on the other end, if the smuggling opportunity is 
expanded I think the North Korean regime will be able to import 
what they wanted.
    But the materials which the North Korea regime wants to 
import are big things like oil or those special--the metals or 
engines for their military and equipment.
    But the things we want to disseminate is the very small 
things. For instance, due to the recent development of 
ideology, the technology, the devices of these for 
dissemination is getting smaller and smaller.
    For instance, 5 years ago, if you want to disseminate the 
contents, you should make this size of DVD and this size of USB 
stick.
    But nowadays, those devices become smaller, around this 
size of a small SD card. So in North Korea, young children call 
this SD card, nose card, because why they call it nose card? If 
their bodies are searched, they can easily put that card inside 
their nose to avoid searching.
    Mr. Perry. Mr. Thae, may I ask you one question, one more 
question in the short amount of time I have left? Since I've 
been a little boy, I've heard about American prisoners from 
Vietnam and the Second World War being held in POW camps in 
North Korea.
    Is there any truth of that, to your knowledge? Would you 
have any knowledge of that? Was it ever discussed? What do you 
know about that, if anything?
    Mr. Thae. Oh, to be honest, I have no idea about it.
    Mr. Perry. Thank you, Mr. Ambassador.
    Chairman Royce. We go now to Representative Norma Torres 
from California.
    Ms. Torres. Thank you, Mr. Chairman.
    Mr. Thae, thank you for joining us today. I am trying to 
comprehend what caused you and the wave of defectors to leave 
during the time that you left versus under the previous Supreme 
Leader. Can you talk a little bit about that?
    Mr. Thae. You mean my case?
    Ms. Torres. Mm-hmm.
    Mr. Thae. Oh, first of all, I would like to tell the 
members here that I am not the only North Korean diplomat who 
defected in----
    Ms. Torres. It was a wave. Right.
    Mr. Thae. There are more North Korean defectors who--I 
mean, diplomats who defected. But this is the matter of whether 
they are willing to open their identity or not. But, you know, 
as I have told you that I was fortunate to bring my wife and 
two sons here in----
    Ms. Torres. We have very limited time, sir.
    Mr. Thae. Yes. Yes.
    Ms. Torres. I apologize.
    Mr. Thae. That's right. So but out of my colleagues who are 
also diplomats, they have their, you know, their siblings and--
--
    Ms. Torres. Why now and not before, sir?
    Mr. Thae. Yes. So actually the number of diplomat 
defections is more than we estimate.
    Ms. Torres. More now or more under the previous----
    Mr. Thae. Under previous--yes, I meant in the past 2 or 3 
years.
    Ms. Torres. 2 or 3 years under----
    Mr. Thae. Kim Jong-un regime.
    Ms. Torres. Right.
    Mr. Thae. Yes.
    Ms. Torres. Why now under this regime and not the previous? 
What's the difference? What caused you to say enough is enough?
    Mr. Thae. Because the first Kim Jong-un escalated his reign 
of terror of this kind of thing. So many diplomats and elite 
group lost confidence on the system and also now Kim Jong-un is 
desperately accelerating this nuclear process which is very, 
very dangerous to the existence of North Korea.
    Ms. Torres. Was there something specific to you personally 
that caused you to say this is it, it's time for me to leave?
    Mr. Thae. Oh, there is not that kind of, you know, 
triggering point. But as I have said that I have watched and 
followed those growing process of my sons in London and I 
thought that it is not the right thing for me to take them 
back.
    Ms. Torres. Mr. Kim Jong-un is a young man. He's going to 
have a birthday on January 8th.
    Mr. Thae. That's right. But nobody knows which year.
    Ms. Torres. Between Russia and China, who do you think is 
more involved in advising him on issues dealing with the U.S.?
    Mr. Thae. I don't think China or Russia is advising Kim 
Jong-un on that matter. He is advised by his close associates.
    Ms. Torres. Yet, China is very dependent on workers from 
North Korea.
    Mr. Thae. Yes.
    Ms. Torres. So how can it be that China is not advising him 
on how to deal with the U.S.?
    Mr. Thae. Oh, I mean that I don't think that the Chinese 
has any kind of, you know, the diplomatic instrument which can 
change the thought of Kim Jong-un and also it is a common fact 
that China is exercising the double standard--the approach on 
North Korea on one hand.
    China is keeping its obligation with United Nations 
sanctions but on the other hand it is also opening the 
possibilities for North Korea to fund its program by importing 
a lot of North Korean laborers to their country.
    Ms. Torres. Smuggling networks, private traders, small 
companies, do you have an idea of, you know, who they are and 
how we can as a U.S. policy impact that activity?
    Mr. Thae. I think that is the matter of the Chinese 
decision. I think we should continue to convince the Chinese 
Government that the North Korean nuclear threat is not only a 
threat to America but it can be the threat to China itself.
    So I think we should continue to convince the Chinese 
Government to cooperate to stop North Korea's nuclearization 
and if the Chinese are convinced then I think the Chinese 
Government will take effective measures to stop and crack down 
all the smuggling networks.
    Ms. Torres. So what I am understanding----
    Chairman Royce. Okay. Well, the time has expired, though.
    Ms. Torres. Thank you. I yield back.
    Chairman Royce. Okay. We have got to go to Joe Wilson of 
South Carolina.
    Mr. Wilson. Thank you, Mr. Chairman.
    And Ambassador Thae, I appreciate your courage on behalf of 
the Korean people. I represent many constituents in South 
Carolina who have served in Korea.
    They developed a great affection for Korean families. I can 
identify because my dad served in the Flying Tigers to World 
War II and he developed a great affection for the people of 
India and China.
    Additionally, I want you to know that the Korean-American 
population is so important across the United States but in my 
home state of South Carolina this weekend we had the Korean 
festival and it is to celebrate the extraordinary culture of 
Korea.
    And at Columbia, South Carolina, the Korean Presbyterian 
Church led by Reverend Dong-young Kim, there will be a great 
celebration of how much the people of America appreciate the 
culture of Korea.
    And Mr. Chairman, I appreciate your leadership promoting 
freedom for the Korean citizens, which is of the utmost 
importance for the people of South Korea and American families 
for our security.
    It is for this reason I'd like to thank the chairman for 
his attention to a bill that has been proposed by Congressman 
Adam Schiff of California.
    It's a bipartisan bill that supports and clarifies and 
compliments the State Department's recent prohibition on the 
tourist travel in North Korea, sadly reflecting on the murder 
of Otto Warmbier.
    Mr. Thae, would you agree that, sadly, North Korea is a 
supremely dangerous place? And I applaud the State Department 
with the leadership of President Donald Trump and U.N. 
Ambassador Nikki Haley for their efforts, through the 
expeditious passage of the H.R. 2397, the North Korea Travel 
Control Act.
    The danger that North Korea poses to America and our allies 
is a bipartisan concern and I am just so grateful that both 
Chairman Ed Royce and Ranking Member Eliot Engel have supported 
its passage out of the Subcommittee on Asia and the Pacific.
    And Ambassador Thae, I have recently visited the beautiful 
country of South Korea. What an extraordinary country, and I 
know the critical relationship that we have that ``we go 
together.''
    Additionally, I am grateful that with Chairman Royce and 
Congressman Eliot Engel we are possibly the only Members of 
Congress who have been to North Korea.
    We saw the destitution, oppression of the people in 
Pyongyang but that is in contrast to the extraordinary success 
of the people of South Korea, the Republic of Korea, and in 
Seoul.
    With that in mind, there have been measures passed both in 
Congress and at the U.N., led by Ambassador Nikki Haley--the 
former governor of my home state, South Carolina--that targeted 
North Korean textiles, coal, iron ore, seafood, and other 
sectors that are used to finance the illicit programs of the 
North Korean regime.
    Are there any other sectors or streams of revenue that we 
could act? I am also grateful that President Donald Trump has 
begun a process of what's called secondary sanctions. Can you 
suggest to the President any secondary sanctions that should be 
enforced to help the people of Korea?
    Mr. Thae. Oh, I think they could target the measures taken 
by something like a secondary boycott. I strongly believe that 
these kind of secondary boycott measures should be expanded to 
target the Chinese and Russian companies who helps the illicit 
activity by North Korea.
    But meanwhile, I also want to use diplomatic soft power, 
something like a campaign to isolate North Korea and in 
diplomatic world.
    Ironically, so far only a few countries in the world 
expelled North Korean Ambassadors as a protest of the current 
continuation of nuclear program.
    For instance, now North Korea has conducted six nuclear 
tests. But except Spain, no European countries so far have ever 
expelled or downgraded the current diplomatic relations with 
North Korea.
    What happened between Iran and European countries in the 
past because of the case of Rashid, the Iranian novelist, at 
that time the whole European Union, together with America, 
joined in their efforts to isolate Iran diplomatically by 
withdrawing all the Ambassadors from Tehran and asking Iran to 
withdraw their Ambassadors from all European capitals. But so 
far, we haven't seen that kind of concerted or unified response 
from Western European countries which we share common ideas and 
values.
    So that is why I think the American Government should beef 
up more its campaign of diplomatic isolation against North 
Korea, asking the American allies to follow the suit, to follow 
the America's policy to isolate North Korea diplomatically.
    Now, North Korean workers--tens of thousands of North 
Korean workers are working in American Middle East allies like 
Kuwait, the Arab Emirates. But these Arab countries are still 
allowing North Korean workers working in their countries.
    American allies like Poland are still allowing the North 
Korean workers working in their shipyards. So a lot of measures 
can be taken with the cooperation with American allies. Why 
can't the American Government ask Arab allies to do more?
    Chairman Royce. And if I could interrupt at that point. We 
have passed sanctions legislation which allows us to deploy 
sanctions against those entities and we should be doing that. 
It's a very good point.
    We need to go to Mr. Brad Schneider of Illinois.
    Mr. Wilson. Ambassador, you're an inspiration. So is our 
chairman. Thank you.
    Chairman Royce. Mr. Brad Schneider of Illinois.
    Mr. Schneider. Thank you, Mr. Chairman, and thank you for 
providing this opportunity for Mr. Thae to join us.
    It was an honor to be with the chairman in South Korea in 
August and a chance to meet with you there. I thank you for 
that time. I appreciate you coming here and sharing your 
experiences, your insights. It's very important that you're 
here and your candor and frankness is very much appreciated.
    One of the things you mentioned is that as the elite within 
North Korea get promoted, it involves greater sacrifice and 
entails increasing risk.
    Given that, what would be the impact in North Korea of 
providing more opportunities for the elite to defect and how 
might the international community go to creating those 
opportunities for defection?
    Mr. Thae. Yes. I think we should have a tailor-made system 
for North Korean elites to defect. For instance, before I 
defected to South Korea, I studied about the system of South 
Korea what can I do--what kind of life in my future in South 
Korea.
    I searched all the contents on the Internet. But before my 
arrival to South Korea and spent a few months in South Korea, I 
could not get any informations what kind of treatment or what 
kind of status I can be given by the South Korean Government.
    But, of course, the policy of equal treatment for North 
Korean defectors in South Korea. But as for high elite 
defectors, I think we should make a tailor-made law so that if 
we make the exit of North Korean elites for defection I think 
we should upgrade more the current treatment the policies of 
North Korea's elite group because the country, like North 
Korea, can be easily collapsed if the group of elite leave that 
system.
    Mr. Schneider. Great. Thank you.
    I liked how you described the thumb drives that are now 
nose drives that young people can hide. But that is just a 
mechanism to get more information into the mass population of 
North Korea.
    I know others have touched on it a little bit but could you 
expand a bit about some of the most important messages we need 
to communicate to the people of North Korea to try to unravel 
the brainwashing that is coming from the Kim regime and expose 
North Koreans to what is the reality within their country but 
also the reality in South Korea and the rest of the world.
    Mr. Thae. I think we can make tailor-made contents 
comparing the reality in North Korea and South Korea because 
North and South, we share the same language, same culture, and 
also we have huge separate families who also have bloodlines.
    That's why I think if we make good tailor-made contents to 
educate the North Korean people, something like we may use the 
ordinary daily life of North Koreans. For instance, in North 
Korea there is no concept of a proper payment for the labor 
they sacrificed.
    North Korea was in place for several decades without proper 
payment. For instance, when I worked as the deputy general 
director of North Korea's foreign ministry, my monthly salary 
was $2,900 North Korean won.
    At that time, one kilo of rice was $3,400 won. So with 1 
month's salary, I cannot even afford to buy one kilo of rice. 
So the North Korean system is kind of stupid but people just 
take it for granted because they are used to this kind of 
stupidity for a long time and nobody thinks it is strange.
    So that is why we should educate the North Korean people 
that everyone in the North Korean system are entitled for 
proper payment.
    Mr. Schneider. In your sense and your experience, is this 
something that should be done in high production qualities or 
is it more important that it is coming from people--as you 
mentioned, there were the connections--familiar connections, 
North Koreans and South Koreans share those bonds--is it 
something that should be done showing every--just everyday life 
in South Korea?
    Mr. Thae. No, every life in North Korea, I mean.
    Mr. Schneider. Right. But showing to the North Koreans what 
it is like, everyday life in South Korea--that there is 
opportunity, that someone gets a fair day's wage for a fair 
day's work--that there is opportunity to raise your family and 
give them a better future than what their parents are enduring 
right now?
    Mr. Thae. Yes, something like that. For instance, yesterday 
I told a very interesting story at CSIS about the cultural 
concepts in North Korea.
    In North Korea, for instance, when the girls with physical 
beauty reaches the age of 14, they are automatically and 
naturally registered by the regime. And when the girls reach 
the age of 16 and 17 and if they--the girls keep that physical 
beauty then they would be mobilized to be sent to the capital 
to be employed either in special hospitals or guest houses for 
the entertainment of the Kim family.
    But in North Korea, if the young girl with physical beauty 
is sent to Pyongyang for that purpose, the villagers of that 
village would regard it as a kind of honor of the family.
    It is really a stupid culture which was practiced and 
prevailed, say, for hundreds of years ago in Yi Dynasty of 
Korea. But still the North Korean people believe that they--the 
Kim family can exploit sexually their daughters--you know, 
beautiful daughters.
    So it is really stupid, the system and culture. We should 
educate the North Korean people how stupid they are by sending 
their beautiful daughters to the capital.
    Mr. Schneider. Okay. Well, I am out of time. Thank you.
    Chairman Royce. We need to now--yes. We need to now go to 
Brian Mast from Florida. Major?
    Mr. Mast. Thank you, Chairman, and thank you, sir, for your 
remarks today. You have spoken a little bit about the history 
of nuclear development in North Korea.
    I believe you were speaking about the Joint Institute for 
Nuclear Research previously--that overlap between Russia and 
North Korea, going back quite a long way. And we are all very 
familiar with the proliferation efforts of A.Q. Khan.
    I want to ask a little bit more modernly to your knowledge. 
Has there been any effort by China to share either nuclear 
technology or ballistic missile technology with North Korea in 
modern history?
    Mr. Thae. Oh, first of all, I do not have any clear 
information in fact of this nuclear cooperation between North 
and China.
    But it is a common fact that all those--the ferries which 
carry all those--the trucks which carry the ICBMs are Chinese-
made trucks. This is a very common thing. Even though China 
claims that those trucks were exported to North Korea for the 
timber industry but it is a proven fact that North Korea is 
actually using all those China-made trucks for ICBM deployment.
    So and another thing--it is true that in '60s and '70s the 
basic technology of North Korean submarines were imported from 
China and hundreds of Chinese technicians helped North Korea to 
build the first class of submarines.
    Mr. Mast. I do want to get to submarines in a moment. That 
is part of, you know, the whole idea of nuclear triad. Before I 
ask that question, though, to your knowledge has North Korea 
had a desire to or actually engaged in sharing their 
advancements with Iran?
    Mr. Thae. Oh, in the past, whenever North Korea test those 
satellites, Iranian scientists were invited to the site and it 
is the common fact that during the war between Iraq and Iran, 
North Korea supported the Iran side by supplying vast--the 
military equipments and after that ended, because of that there 
was strong cooperation between Iran and North Korea on all 
military terms.
    But in terms of nuclear cooperation, I do not have any 
clear fact information of that in that regard.
    Mr. Mast. North Korea is not a member of the Nuclear Non-
Proliferation Treaty. It's known that they pulled out in 2003. 
In your opinion, would they share their advancements in nuclear 
technology with Iran? Do you think that they would have a 
desire to do that?
    Mr. Thae. Absolutely, because North Korea is a country who 
wants to sell anything for hard currency. It has proved on a 
couple of occasions that North Korea was engaged in illicit 
activities like counterfeiting currencies, drugs. So why not 
their nuclear technology?
    Mr. Mast. So you did bring up submarines and there is quite 
often the emphasis and conversation is placed on ICBM 
technology.
    I would like to know, from your knowledge, has there been 
an effort to advance capabilities that would allow delivery of 
a nuclear weapon from a submarine system where they could get 
off the coast of Japan or South Korea or the United States or 
any other area of the coast? Has there been a desire or an 
effort to advance in their submarine delivery capabilities?
    Mr. Thae. Oh, it was reported a couple of times and North 
Korea also claimed that it made dramatic improvements in their 
submarine delivery especially by--in terms of code launching 
the technology.
    And last year, North Korea proved a couple of times that it 
made great advancements in SLMB, the test and I am sure that 
North Korea will continue on that process.
    Mr. Mast. I have one final question as it pertains to, I 
guess the best way I could put it, would be safety. You know, 
historically speaking, in the world of nuclear weapons between 
the United States of America and Russia there have been very 
known protocols.
    At one point, it was mutually assured destruction and then 
there was a ladder of escalation--that everybody knew what the 
various steps of that were--you know, selective ambiguity.
    And so what I would like to know is has North Korea, in an 
effort to obtain a nuclear weapon, have they also made an 
effort to secure any of the safety protocols that have existed 
with the United States of America or Russia to ensure that 
there is not an accidental launch of a weapon or that somebody 
that is not part of the regime in control could get in control 
of a nuclear football, as we call it here, and make a launch? 
Has there ever been any safety efforts?
    Mr. Thae. Oh, last year North Korea announced that the 
North Korean army's strategic military unit, which means the 
ICBM missile unit, directly belongs to Kim Jong-un himself. 
They officially announced it.
    So this means that Kim Jong-un wants to delegate the direct 
instructions from his command directly to the general who is in 
charge of that whole missile unit.
    And I haven't read or seen any of that kind of safety--the 
regulations how to control or manage North Korea's nuclear 
arsenal. Personally, I haven't heard any of that kind of the 
regulations or procedures.
    Chairman Royce. We need to go to Colonel Ted Lieu of 
California.
    Mr. Lieu. Thank you, sir, for your courage and for 
testifying before the United States Congress, and thank you, 
Chairman Royce, for holding this important hearing and giving 
us the opportunity to ask questions.
    You, sir, had mentioned elites in your testimony. You said 
you were one of the elites. How many people are we talking 
about in that category, would you say?
    Mr. Thae. You mean in the total elites or only just 
diplomats?
    Mr. Lieu. The total elites in North Korea, just a ballpark 
figure.
    Mr. Thae. Oh, it is really difficult to give exact 
percentage of the elite group. But according to the recent 
survey, the North Korean society is a class society.
    While there are three classes, the main ruling class is 
called core class and next is wavering class and the last one 
is hostile class, and according to the academic search by 
calculating the population of Pyongyang, the capital of North 
Korea, the experts are arguing maybe 25 percent of North Korean 
population belong to the core class and usually elite are 
chosen only from core class. To my impression, when we say 
about elite I think maybe less than 10,000, to my knowledge.
    Mr. Lieu. And you, as an elite, clearly saw the truth, 
which is why you defected. Is your sense that most of the 
elites also see the truth? Or do you think most of them are 
brainwashed and don't really know what's going on?
    Mr. Thae. North Korea is a very strange and unique system. 
For instance, if you are in high rank, that does not mean that 
you have more access to information.
    For instance, inside North Korea the most powerful 
institution which controls every sector of life is guidance and 
organization of Department of Central Committee of Workers' 
Party of Korea.
    There are around 300 or 400 people actually who control the 
whole North Korea. But do these people have access to outside 
information like me?
    No, because there are only 10,000 diplomats--there are only 
1,000 diplomats working in Foreign Ministry who have that kind 
of access to world news, for instance, all those--the 
newspapers or all these foreign magazines.
    But the people who are working much higher in the ranks do 
not have any ability to access this kind of outside 
information. So even though you are in high rank that does not 
mean that you have the access of information.
    Mr. Lieu. And if we could deliver information to the 
elites, do you think that would be enough? Or do you think we'd 
actually have to do what you said, just give a lot of 
information to the people?
    Mr. Thae. I think--oh, that we should make a different 
contents which can be targeted for the different--you know, the 
people and class of North Korea.
    For instance, there is not a sense of solidarity between 
the core class and the wavering or hostile. There is a kind of, 
you know, hidden hatreds between core class and hostile class 
because during the Korean War and before the Korean War 
actually their ancestors fought each other.
    So that is why now the ruling class, or elite, in North 
Korean society are afraid of any kind of political revenge if 
there is any change of the system or if there is any sudden 
contingency in North Korean society.
    So we should continue to deliver a kind of message that if 
they cooperate with the rest of the population to change the 
North Korean regime, then their future would be guaranteed.
    For instance, America, together with South Korea, can 
control and prevent any political revenge, any physical revenge 
from those victims of Kim Jong-un.
    So we should try to make a kind of accommodation of 
feelings and those, you know, the hatreds between elite class 
and wavering and hostile class. So that is the best way to make 
a change.
    Mr. Lieu. Thank you. I appreciate it.
    I yield back.
    Chairman Royce. Thank you, Mr. Lieu.
    We go now to Mr. Ted Yoho of Florida.
    Mr. Yoho. Thank you, Mr. Chairman.
    Ambassador Thae, good seeing you again. As you can see this 
is on TV. It's being broadcast here. If it is being broadcast 
here with the astuteness of the North Koreans being able to 
hack in, we can probably assume that if Kim Jong-un and his 
people wanted to watch they are watching us right now. So I am 
going to direct this probably more to them.
    And, you know, it was brought up that he's getting his 
ICBMs and his military weapons to protect his regime and 
preserve himself.
    And I would think that if any other country wanted to 
topple him they would have done it by now. So I don't think 
that is really an issue.
    I think what we really need to focus on is bringing him to 
the table and have a diplomatic end to this nonsense--you know, 
building nuclear wars in the 21st century.
    And I wanted to ask you, without having North Korea on the 
state sponsor of terrorism list, do you think that makes the 
sanctions less effective versus putting North Korea back on the 
state sponsor of terrorism list? What's your thoughts?
    Mr. Thae. I think we should avail every bit possible of 
nonmilitary options to stop North Korea's continuation of this 
process.
    Mr. Yoho. And, in your opinion, if we put North Korea--
being a diplomat from North Korea, if we were to put North 
Korea back on the state sponsor of terrorism list, do you think 
that would have more effect by other countries that you 
visited?
    Mr. Thae. Absolutely.
    Mr. Yoho. Okay. Let me ask you this. What kind of 
relationship does North Korea have on a diplomatic level with 
other countries? What did they focus on?
    When you're in a country--when you were a North Korean 
diplomat and you were in the countries that you were in, was it 
a feeling of respect you got from another country or was it a 
feeling of tolerance--that they put up with North Korea?
    Mr. Thae. Oh, for instance, as a diplomat working in United 
Kingdom, I was always instructed to use the British 
Government's North Korean policy of critical engagement and I 
always tried my best to convince the British Government to let 
them use their role to prevent any possible war scenario on the 
Korean Peninsula.
    For instance, if there is a key reserve for exercise of the 
British military representative or a small personnel were 
always invited to take part in that war exercise and it is my 
job to visit the British Foreign Office and the defense 
ministry to convince them not to go to joint military 
exercises.
    Mr. Yoho. Okay. So you focused more on military, whereas my 
experience has been with most Embassies from country to country 
they focus on trade, economies, building economies, and 
cultural exchanges. You're saying you just focused on military 
and don't attack us?
    Mr. Thae. Of course. You know, for instance, there is 
almost not any trade relations between North Korea and Britain. 
That's why there is no point for me to build that kind of 
things.
    But as for cultural exchanges, the British side tried to 
invite as many as North Korean civil servants to take part in 
English short-term training course and I thought that it will 
be helpful for North Korean elites to look around democracy and 
freedom in U.K.
    Mr. Yoho. All right. But you didn't see many Embassies 
sending people to North Korea, did you?
    Mr. Thae. Oh, some countries----
    Mr. Yoho. Other Embassies.
    Mr. Thae [continuing]. Some countries and some countries 
not.
    Mr. Yoho. All right. I just want to do a brief review of 
history and, again, this is directed at the people of North 
Korea that may be listening to this.
    You know, we had a war with Germany and Japan. We had a war 
with South Korea and Vietnam. A lot of people died. A lot of 
buildings got destroyed.
    But there is a common denominator and that common 
denominator is war. But the other common denominator is trade. 
You know, so we fought these wars and at the end we are all big 
trading partners.
    South Korea has a market economy. They are our sixth 
largest trading partner. Vietnam is a communist country that 
engaged in market economies. They are our sixteenth largest 
trading partner.
    Germany and Japan are huge trading partners. And so what I 
would encourage the Kim Jong-un regime is don't go to war. If 
we are going to trade, let's just start trading now and do 
whatever we can to come to the negotiating table.
    And that is what I would encourage them to do, and the 
illicit activities they do in their Embassies from wildlife 
trafficking and endangered species, you know, bring that to an 
end and let's just work on the trade.
    Thank you for your time and I will see you at lunch.
    Chairman Royce. Thank you.
    We go now to Joaquin Castro of Texas.
    Mr. Castro. Thank you, Ambassador, for your testimony today 
and for your courage to defect.
    Before I ask you a question, I just want to make a quick 
statement for the historical record. Some have suggested that 
perhaps we should have taken or suggested--intimated that 
perhaps we should have taken military action before to stop 
North Korea's nuclear program.
    But the problem with that is that post-911, once we were 
knee deep in two wars in Iraq and Afghanistan, the idea that 
the United States in 2006 or 2008 or 2009 was going to jump 
into another war in Asia I think seems very strange and 
unrealistic.
    There has also been conflicting reports about North Korea's 
nuclear capabilities. So let me ask you very directly, what is 
your understanding of their ability to deliver a nuclear weapon 
to, say, Japan or South Korea, or beyond that?
    Mr. Thae. Oh, North Korea has started its nuclear 
development from late of 1950s. So that means that North Korea 
spent several decades on completing this nuclear program.
    So I think it is--we should admit that North Korea has 
reached this certain level of nuclear development and actually 
they are at the doorstep before final completion.
    Mr. Castro. Do you think they can deliver a nuclear weapon 
to South Korea?
    Mr. Thae. Oh, I am not quite sure whether they will 
definitely deliver or not. But if we see the current North 
Korean brainwashing education system, they are educating the 
North Korean military officers that they should blindly follow 
what Kim Jong-un instructs them.
    Mr. Castro. Well, I guess let me ask you this, Ambassador. 
Are you certain that they can't deliver a nuclear weapon to 
South Korea?
    Mr. Thae. I think if Kim Jong-un believes that his life is 
threatened, I think he can do anything as long as he has 
something.
    Mr. Castro. Okay. What's your understanding of North 
Korea's abilities within cyberspace?
    Their ability to attack on a cyber level the way the 
Russians have interfered with our elections, for example, and 
the way that North Korea purportedly interfered with Sony's 
systems and did a big data dump? What's your assessment of 
their cyber capabilities?
    Mr. Thae. I do not have the exact information about the 
cyber attacking--you know, the network of North Korea. But what 
I have seen during my life in North Korea has a very good 
educational system to educate those cyber professionals.
    Mr. Castro. So people are being trained in cyber very 
actively?
    Mr. Thae. That's right, from middle school age. So North 
Korea has a very good educational system to do that.
    Mr. Castro. Okay. In addition to China, which other world 
economies--which other nations are propping up the North Korean 
economy?
    I know China makes up the lion's share of it. But in your 
experience, based on what you saw, what other countries are out 
there that are helping prop up this economy?
    Mr. Thae. I think the first, China, and the--naturally, 
Russia is the second and Southeast Asian countries like 
Vietnam, Malaysia, and Thailand these, the geographically 
nearest countries are the number third trading partners of 
North Korea.
    Mr. Castro. And with what kind of activities? What kind of 
goods or what kind of things are being traded? What kind of 
activity makes up?
    Mr. Thae. Oh, North Korea are exporting most of its raw 
materials like coal, the iron ore, seafood--of these things to 
China and in return North Korea buying the highly--technologies 
and modern goods from China.
    So I think North Korea's foreign trade is mostly dependent 
on China.
    Mr. Castro. And then one last question for you. It's been 
many decades now since North and South Korea have basically 
been two separate distinct nations.
    Supposing that the North Korean Government and society did 
crumble. Do you believe that North Korea and South Korea, being 
apart now for so long, could realistically reunify?
    Mr. Thae. Yes, I think so because, you know, we share same 
language and same blood and same culture. North and South are--
has been divided only for 70 years.
    But what I learned after my arrival to South Korea I 
learned we have so many things in common. There is no problem 
for me to understand Chinese culture or system or language.
    So I think it will be a very easy process to accommodate 
the North and South Korea if the two Koreas are reunified.
    Mr. Castro. Thank you. And then just to bookend my comment 
from the beginning, I think that this debate over whether we 
take--we should have taken military action in North Korea 
earlier, perhaps a decade ago, really underlines the mistake of 
the Iraq War.
    We went into the Iraq War believing that Saddam Hussein was 
developing nuclear capabilities that North Korea was actually 
developing. But we took no action there.
    Without making a judgment about whether we should or should 
not have taken military action, I think the mistake of Iraq is 
made worse by that realization.
    Thank you for your testimony today, Ambassador.
    Mr. Thae. Thank you for your question.
    Chairman Royce. Thank you. We go now to Adriano Espaillat 
from New York.
    Mr. Espaillat. Thank you, Mr. Chairman. Thank you, 
Ambassador, for your insightful testimony.
    For many years, we heard of the hunger and famine impacting 
the North Korean people. What's the status of the hunger and is 
there any famine?
    Often, when peoples are facing those kinds of very adverse 
conditions there is an instinct to dissent and to rebel. Is 
there--what's the status of the food situation in North Korea 
right now?
    Mr. Thae. Before the 1990s, North Korea maintained a very 
effective ration system. At that time, everyone in North Korea 
enjoyed certain rations of the food every month.
    But these days, this ration system is only available for 
the civil servants or, like, working in the ministries or 
army--armies or security forces.
    And if we see the effect of this malnutrition and famine in 
North Korea for the past 20 and 30 years, now if we compare the 
general height of North Korean young children and South Korean 
young generation, there is even 10 centimeters gap between 
South Korean young generation and North Korean young 
generation.
    So because of this long decade of malnutrition, even the 
physical toll of North Koreans are changing. So I think this 
clearly proves that this kind of, you know, malnutrition--
famine are still severely going on in North Korea.
    Mr. Espaillat. You mentioned in your testimony about North 
Korea's forced labor and China benefits. Which are the other 
countries that benefit from forced labor and are there any 
particular areas or products that they are producing that we 
can identify and potentially boycott?
    Mr. Thae. For instance, the North Korean workers are the 
main source of labor in Russia for their timber industry. In 
Russian society now there is no Russian wanting to work in that 
cold weather conditions in Siberia. It is North Korean workers 
who help Russia's timber industry and for the construction 
industry the main source of labor are from North Korea.
    And if you see the Middle East countries like Kuwait or 
Arab Emirates, of these countries there are more than 50,000 
North Korean workers are working in those countries, especially 
in construction building.
    And if you see the countries in Africa like the Angola or 
Uganda now there are many North Korean medical teams working in 
very bad severe conditions of rural hospitals to earn the hard 
currency in those countries.
    Mr. Espaillat. Okay. What are the--beyond the Chinese and 
the Russian sphere of influence, are there any relationships 
between the North Korean Government and countries in the 
Western Hemisphere?
    Mr. Thae. Yes, of course. North Korea has diplomatic 
relations and they are with almost all European countries 
except France and Estonia, and North Korea has 11 Embassies in 
Europe. That's why this proves that North Korea still has a 
vast network of diplomatic service in European countries.
    Mr. Espaillat. What about in Latin America and the 
Caribbean?
    Mr. Thae. In Latin America, to my knowledge, now there are 
Embassies in five countries like Cuba, Venezuela, Mexico, Peru, 
and so on--that to my knowledge, yes.
    Mr. Espaillat. Okay. Finally, you mentioned that there are 
thousands of defectors in China and in South Korea and the need 
to protect them is paramount, and if they are sent back to 
North Korea they will be torture--submitted to forced labor.
    What kind of pressure do you think should be exerted 
against China to prevent this from happening but also to 
protect defectors there in the mainland of China?
    Mr. Thae. Before I traveled to America, I happened to visit 
one school in Seoul where they kept the children born by this 
sex exploitation in China.
    The children in school in Seoul where I visited the 
children even cannot speak Korean languages. They only speak 
Chinese. They are the children born between the ladies who 
worked as sex slaves in China and with Chinese husbands.
    So when these--the poor North Korean ladies arrive in South 
Korea and they brought back all those--the children they had 
with their Chinese husbands. But the status of the children are 
very poor because they--these children were not registered 
while they were in China----
    Mr. Espaillat. What kind of pressures do you think----
    Chairman Royce. I am going to have to interrupt at this 
point.
    Mr. Espaillat. Thank you, Mr. Chairman.
    Chairman Royce. We have very few minutes--very little time 
left. I am going to as if Mr. Garrett and if Mr. David 
Cicilline would join me at lunch immediately after--a lunch 
which we are supposed to be doing right now with our witness.
    We are far past out of time and we have been asked several 
times to wrap this up. But we have had one person waiting in 
the queue for a while who has a problem with his knee and that 
is Mr. Gerry Connolly from Virginia.
    Gerry, would you like to ask your questions? And then the 
rest of us are going to go to lunch with this guest.
    Mr. Connolly. Thank you, Mr. Chairman, and I'll try to be 
succinct.
    Mr. Thae, you indicated that essentially Kim Jong-un and 
his regime are going to pursue nuclear-tipped ICBMs at all cost 
because they see it as the key to the preservation of the 
regime.
    Is there anything the Western alliance--the United States 
working with Japan and Korea and maybe--South Korea and even 
China or whoever--do we possess something he wants so much that 
he would stop the nuclear development and possibly even roll it 
back the way we did with Iran?
    Mr. Thae. I don't think so.
    Mr. Connolly. So we are way past the point of no return?
    Mr. Thae. That we should continue the current--the momentum 
of sanctions and campaign of diplomatic isolation. I think that 
is the only way to force North Korea to give up its nuclear 
ambition.
    Mr. Connolly. Sanctions don't have the appreciable effect 
because of the black market economy both through China and 
Russia that you were describing as well as some other business 
relationships North Korea has been able to establish. Is that 
your view?
    Mr. Thae. Oh, but, you know, only sanctions is not 
effective to stop this process. But if we build up our pressure 
on China to stop the smugglings and also if we continue and 
expand our activity of disseminating information to educate the 
North Korean people, in the long run I am absolutely sure that 
North Korean people one day will stand up to change the course.
    Mr. Connolly. Do you--a final question--do you believe Kim 
Jong-un and his regime understand that the use of nuclear 
weapons would almost certainly bring enormous retaliation in 
kind, destroying the regime he seeks, purportedly, to 
perpetuate?
    Mr. Thae. I think Kim Jong-un is aware of that but 
meanwhile, he also believes that if he has these nuclear 
weapons he can successfully compel Washington to pull its 
troops out from Korean Peninsula.
    Mr. Connolly. Thank you. I am going to yield back my time. 
I thank the chairman for his graciousness.
    Thank you, Mr. Thae, for your courage and thank you for 
being here today.
    Mr. Thae. Thank you.
    Chairman Royce. Thank you, Mr. Connolly.
    And Mr. Thae, I want to thank you for sharing your story 
and your insights with the committee here and also thank the 
National Endowment for Democracy, which has supported your 
trip.
    As Ranking Member Eliot Engel said, we have had many 
hearings with experts on North Korea. No one has brought the 
insights that you have brought today and your testimony will be 
of great and lasting value, I believe, to the committee.
    One area I wanted to underscore is the abysmal human rights 
situation of the North Korean people. We know how badly North 
Koreans are abused. Hundreds of thousands are in gulags.
    The Kim regime's aggression against us reflects their 
aggression against North Koreans and I think one message we 
have heard again and again is the importance of communicating 
with the North Korean people, letting them know of the true 
nature of the brutal and very corrupt regime there.
    And I think the Korean people deserve so much better than 
the government that they have and to that end we need to do a 
much better job with our international broadcasting efforts and 
other efforts.
    I think our national security depends on it and, Mr. Thae, 
we appreciate your courage. Again, in appearing before us you 
have presented outstanding testimony that will help all Korean 
people and the cause of peace. You should be proud.
    And the hearing stands adjourned.
    Mr. Thae. Thank you.
    [Whereupon, at 12:47 p.m., the committee was adjourned.]

                                     
                                 

                            A P P E N D I X

                              ----------  
                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
